No.
IN THE
SUPREME COURT OF THE UNITED STATES

"In re [Daryl L. Zimmer],"
Petitioner,
vs.
Jack Kowalski, Warden,
Respondent.

PROOF OF SERVICE
I, Daryl L. Zimmer, do swear or declare
2020, as required by Supreme Court Rule 29,
accompanying Motion for Leave to Proceed In
PETITION FOR Writ of Habeas Corpus, on each

that on this June 24,
I have served the
Forma Pauperis and
party to the above

proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing the
above documents, in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery
to a third-party commercial carrier for delivery within three (3)
calendar days.
The names and addresses of those served are as follows:
Michigan Attorney General Dana Nessel, (L. Mennen Williams
Rnildino. 7th Finer. 525 West Ottawa, P. 0- Box 30212, Lansing^
Michigan 4RQ0Q. SI 7-335-7622 - http://www.michigan.qov/ag----------Respectfully submitted,
June 24, 2020
Daryl^L.
B149i3
Petitioner In Pro Se

